TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Report on Audit of Accounting System and
                          Related Internal Controls


                                         December 2005

                             Reference Number: 2006-1C-010




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          December 20, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Audit of Accounting System and Related Internal Controls
                             (Audit # 20061C0201)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s control environment
 and overall accounting system controls as of September 12, 2005. The purpose of the
 examination was to assure that the contractor’s accounting system and related internal controls
 comply with applicable laws and regulations and are operating effectively. Test procedures were
 applied from November 1, 2004, through September 9, 2005.
 The DCAA opined that the overall accounting system and related internal control policies and
 procedures of the contractor’s are adequate. However, during the course of the examination, the
 DCAA noted a matter involving the accounting system and related internal controls which,
 although not considered a significant deficiency at this time, the DCAA believes should be
 communicated to management. This matter is detailed in Appendix I “Suggestion to Improve
 the System.” The DCAA examined only the overall accounting system. Accordingly, the
 DCAA expresses no opinion on the contractor’s system of internal controls taken as a whole.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.
                 Enter the Title for the Defense Contract Audit Agency Report,
                                   Including No Abbreviations



If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                 2
                                   NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the Contracting Officer, to duly authorized
representatives of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
